7
/

/ On Ql&CjQ
/

'

Aflft U______

L\°&___
/

K q992-fa

5
6
7
8

’TV4G. SlAPRE-NAk O.Qi\RT OF TVAC, UtOtTg=.b

9
10

n

AyTTOU^ &££.VS T

.a&Q:

kL

PoAr \ V'^iP'i>-.0 3

11
12
13

V-

14
15

16

VAgAl N/VNYAIF.LL,
R, PS>f>r>C\AP')TY\-

17
18
19

r

“X

\

20
21

V

,

V

22
23
24
25
26
27
28

L

\
\

f

l

/

/

/

1
1

t

2
3
4
5
6
7
UNITED STATES DISTRICT COURT

8

CENTRAL DISTRICT OF CALIFORNIA

9
10
11

ANTOINE D. REED,

Case No. LACY 15-5636-CAS (LAL)

12

Petitioner,

13
14

ORDER ACCEPTING REPORT AND
RECOMMENDATION OF UNITED
STATES MAGISTRATE JUDGE

V.

DANIEL PARAMO, Warden,

15

Respondent.

16

Pursuant to 28 U.S.C. § 636, the Court has reviewed the First Amended Petition, the

17

Magistrate Judge’s Report and Recommendation, Petitioner’s Objections and the remaining

18

record, and has made a de novo determination.

19
20

Petitioner’s Objections lack merit for the reasons stated in the Report and
Recommendation.

21

Accordingly, IT IS ORDERED THAT:

22

1.

The Report and Recommendation is approved and accepted;

23

2.

Judgment be entered denying the First Amended Petition and dismissing this

24
25

, action with prejudice; and
3.

The Clerk serve copies of this Order on the narties.

26
27
28

DATED: February 14, 2019
HONORABLE CHRISTINA A. SNYDER
UNITED STATES DISTRICT JUDGE

JS-6

l
2
£ •

3
4
5
6
7

UNITED STATES DISTRICT COURT

8
CENTRAL DISTRICT OF CALIFORNIA

9
10
11

ANTOINE D. REED,

Case No. LACY 15-5636-CAS (LAL)
Petitioner,

12
13
14

JUDGMENT

V.

DANIEL PARAMO, Warden,
Respondent.

15
16
17
18
19
20
21

Pursuant to the Order Accepting Report and Recommendation of United States
Magistrate Judge,
IT IS ADJUDGED that the First Amended Petition is denied and this action is dismissed
with prejudice.

22
23
24
25
26
27
28

DATED: February 14, 2019
HONORABLE CHRISTINA A. SNYDER
UNITED STATES DISTRICT JUDGE

r
j

l
2
3
4

5
6
7
UNITED STATES DISTRICT COURT

8

CENTRAL DISTRICT OF CALIFORNIA

9
10
11

Case No. LACY 15-5636-CAS (LAL)

ANTOINE D. REED,

12
13
14

Petitioner,

ORDER DENYING CERTIFICATE OF
APPEALABILITY

v.
DANIEL PARAMO, Warden,

15

Respondent.

16
17
18

For the reasons stated in the Report and Recommendation, the Court finds that Petitioner

19

has not made a substantial showing of the denial of a constitutional right.1 Thus, the Court

20

declines to issue a certificate of appealability.

21
22
23
24

DATED: February 14, 2019
HONORABLE CHRISTINA A. SNYDER
UNITED STATES DISTRICT JUDGE

25
26
27

28
1

1 See 28 U.S.C. § 2253; Fed. R. App. P. 22(b); Miller-El v. Cockrell. 537 U.S. 322, 336, 123 S. Ct. 1029,154 L. Ed.
2d 931 (2003).

1
2
3
4
5

6
UNITED STATES DISTRICT COURT

.7

CENTRAL DISTRICT OF CALIFORNIA

8

9
10

ANTOINE D. REED,

Case No. LACY 15-5636-CAS (LAL)

11

Petitioner,

12
13

REPORT AND RECOMMENDATION OF
UNITED STATES MAGISTRATE JUDGE

v.
DANIEL PARAMO, Warden,

14

Respondent.

15
16
17

This Report and Recommendation is submitted to the Honorable Christina A. Snyder,

18

United States District Judge, under the provisions of 28 U.S.C. § 636 and General Order 194 of

19

the United States District Court for the Central District of California.

20

I.

21

PROCEEDINGS

22

'

On July 24, 2015, Antoine D. Reed (“Petitioner”) filed a Petition for Writ of Habeas

23

Corpus by a Person in State Custody pursuant to 28 U.S.C. § 2254 (“Petition”). On November 5,

24

2015, the then assigned magistrate judge granted Petitioner’s motion to stay the proceedings in

25

order to exhaust unexhausted claims in state court. On April 15, 2016, Petitioner filed a First

26

Amended Petition (“FAP”). On August 1, 2016, Respondent filed a Motion to Dismiss the First

27

Amended Petition. On February 6, 2017, the then assigned magistrate judge issued a Report and

28

III

1

Recommendation that the Motion to Dismiss be granted and Petitioner be directed that if he

2

chose to proceed on Claims One through Four of his Petition he would be required to withdraw

3

Claim Five. On June 5, 2017, the district court granted Petitioner’s motion to withdraw Claim

4

Five and ordered Respondent to file an Answer to Claims One through Four of the First

5

Amended Petition. On October 19, 2017, Respondent filed an Answer. On February 21, 2018,

6

Petitioner filed a Reply. Thus, this matter is ready for decision.

7

n.

8

PROCEDURAL HISTORY

9

A.

10

Conviction and Sentence
On December 5, 2007, Petitioner was convicted after a jury trial in the Los Angeles

11

County Superior Court of one count of forcible rape,1 one count of oral copulation of a person

12

under 16 years old,2 and two counts of lewd act upon a child.3 (Volume 2 Clerk’s Transcript

13

(“CT”) at 398-408,449.) On January 31, 2008, the trial court sentenced Petitioner to a state

14

prison term of 110 years to life. (2 CT at 445-49.)

15

B.

16

Direct Appeal
Petitioner appealed his conviction and sentence to the California Court of Appeal.

17

(Lodgments 48-50.) On March 4, 2009, the Court of Appeal conditionally reversed the

18

judgment, finding that the trial court erroneously prevented Petitioner from calling the victim’s

19

mother as a defense witness at trial. The appellate court remanded the matter to the trial court to

20

allow Petitioner the opportunity to present the witness’s testimony for the trial court’s

21

determination of whether the testimony warranted a new trial. (Lodgment 1 at 2.) Petitioner

22

then filed a Petition for Review to the California Supreme Court, which summarily denied

23

review on June 10, 2009. (Lodgments 2, 3.)

24

Following remand proceedings, Petitioner filed an appeal from the reinstated judgment

25

and a “Request for Peremptory Writ” in the California Court of Appeal. (Lodgments 12, 51-53.)

26

On December 15, 2010, the Court of Appeal considered both the appeal and the writ, which it

27
28

1 Cal. Penal Code § 261(a)(2).
2 Cal. Penal Code § 288a(b)(2).
3 Cal. Penal Code § 288(c)(1).

2

1

construed as a habeas petition. (Lodgment 4.) The Court of Appeal again reversed the judgment

2

and again remanded the matter to the trial court, finding that the trial court had prevented

3

Petitioner from eliciting relevant evidence from the victim’s mother during the hearing on

4

remand. The California Court of Appeal further dismissed Petitioner’s habeas petition without

5

prejudice as moot. (Lodgment 4 at 2.)

6

Following the second remand proceedings, Petitioner filed a third appeal from his

7

conviction. (Lodgments 54-56.) On February 6, 2014, the California Court of Appeal affirmed

8

the judgment. (Lodgment 5.) Petitioner then filed a Petition for Review to the California

9

Supreme Court. (Lodgment 6.) The Supreme Court summarily denied review on April 23,

10

2014. (Lodgment 7.)

11

C.

12

Collateral Review
Meanwhile, on June 22, 2010, Petitioner filed a second habeas petition in the California

13

Court of Appeal. (Lodgment 8.) On July 8, 2010, the Court of Appeal denied the petition

14

without prejudice because Petitioner had not first sought relief in the Superior Court. (Lodgment

. 15
16

17
18

9.)
On June 18, 2010, Petitioner filed a third habeas petition in the California Court of
Appeal, which the appellate court denied on June 23, 2010. (Lodgments 33, 34.)
On July 20, 2010, Petitioner filed a fourth habeas petition in the California Court of

19

Appeal. (Lodgment 10.) On August 20, 2010, the California Court of Appeal denied the

20

petition. (Lodgment 11.)

21
22
23

On January 18,2011, petitioner filed a Petition for Review in the California Supreme
Court, which denied the petition on March 2, 2011. (Lodgments 13, 14.)
On September 29, 2011, Petitioner filed a Petition for Writ of Mandate in the California

24

Court of Appeal, (http://appellatecases.courtinfo.ca.gov.) The Court of Appeal denied the

25

petition on October 5, 2011. (http://appellatecases.pourtinfo.ca.gov.)

26

On March 22, 2013, Petitioner filed a fifth habeas petition in the California Court of

27 •

Appeal. (Lodgment 15.) On April 4, 2013, the Court of Appeal denied the petition because

28

Petitioner had not first sought relief in the Superior Court. (Lodgment 16.)

3

1
2

On April 23, 2013, Petitioner filed a habeas petition in the Los Angeles Superior Court,
which the Superior Court denied on June 18, 2013. (Lodgment 35.)

3
4

On June 9, 2014, Petitioner filed a second habeas petition in the Los Angeles Superior
Court, which the Superior Court denied on June 27, 2014. (Lodgment 19.)

5

On August 8, 2014, Petitioner filed a third habeas corpus petition in Los Angeles County

6

Superior Court. (Lodgment 20.) The Superior Court denied the petition on September 29, 2014.

7

(Lodgment 21.)

8
9

On August 18, 2014, Petitioner filed a petition for writ of mandate in the California Court
of Appeal seeking the return of seized property. (Lodgment 22.) On January 6, 2015, the Court

10

of Appeal remanded the case to the Superior Court for further proceedings regarding the

11

evidence. (Lodgment 23.)

12

.

On November 24, 2014, Petitioner filed a sixth habeas petition in the California Court of

13

Appeal. (Lodgment 17.) On December 11, 2014, the California Court of Appeal denied the

14

petition because Petitioner had not first sought relief in the Superior Court. (Lodgment 18.)

15

Next, on January 28, 2015, Petitioner constructively filed a fourth habeas petition in the

16

Los Angeles Superior Court. (Lodgment 24.)4 The Los Angeles County Superior Court denied

17

the petition on April 14, 2015. (Lodgment 25.)

18
19

On April 22, 2015, Petitioner filed a fifth habeas petition in the Los Angeles Superior
Court, which the Superior Court denied on June 18, 2015. (Lodgment No. 26.)

20

On July 23, 2015, Petitioner filed a sixth habeas petition in the Los Angeles Superior

21

Court. (Lodgment 27.) On July 24, 2015, the Superior Court denied the petition. (Lodgment

22

28.)

23

On August 21, 2015, Petitioner filed a sixth habeas petition in the California Court of

24

Appeal. (Lodgment 29.) The appellate court denied the petition on September 11, 2015.

25

(Lodgment 30.)

26
27

28

4 The copy of the petition lodged by Respondent is not file stamped. Thus, this Court refers to die date on which
Petitioner signed the Petition.

4

1

On November 16, 2015, Petitioner filed a habeas petition in the California Supreme

2

Court. (Lodgment 31.) On March 9, 2016, the California Supreme Court denied the petition.

3

(http://appellatecases.courtinfo.ca.gov.)5

4

5
6

On March 13, 2017, Petitioner filed a petition for writ of mandate in the California Court
of Appeal, which the court denied on March 22, 2017. (Lodgment 58.)
Finally, on May 30, 2017, Petitioner filed a second habeas petition in the California

7

Supreme Court. (Lodgment 59.) The Supreme Court denied relief on August 9, 2017.

8

(Lodgment 60.)

9

m.

10

SUMMARY OF THE EVIDENCE PRESENTED AT TRIAL

11

This Court has independently reviewed the state court record. Based on this review, this

12

Court adopts the factual discussion of the California Court of Appeal’s February 6, 2014 opinion

13

in this case as a fair and accurate summary of the evidence presented at trial:6

14

The prosecution’s evidence showed that Re'ed approached 15-year-old S.

15

between 7:00 and 8:00 in the morning of August 2, 2006, as she waited at a bus

16

stop to go to school. Reed told S. that he was a “modeling agent” and asked her

17

to walk over to his car to look at photographs and his camera. S. agreed. At the

18

car, Reed showed S. a document that he said was his “modeling agent” license,

19

his camera and an album of photographs of young women. Reed told S. that he

20

would pay her $200 if she would go with him to model for some photographs.

21

Believing that she was going to earn $200 for modeling, S. agreed to go with

22

Reed. During the drive to the Botanic Garden in Palos Verdes, S. told Reed that

23

she was 15 years old and Reed told her that he had daughters close to her age.

24
25
26
27
28

5 Respondent cites to Lodgment 32 as the California Supreme Court’s denial of this petition. (Answer at 4.)
However, Lodgment 32 is missing from this Court’s record.
6 “Factual determinations by state courts are presumed correct absent clear and convincing evidence to the contrary .
...” Miller-El v. Cockrell. 537 U.S. 322, 340, 123 S. Ct. 1029, 154 L. Ed. 2d 931 (2003) (citing 28 U.S.C. §
2254(e)(1)). Thus, Ninth Circuit cases have presumed correct the factual summary set forth in an opinion of the
state appellate court under 28 U.S.C. §2254(e)(l). See, e.g.. Moses v. Pavne. 555 F.3d 742, 746 n.l (9th Cir. 2009)
(citations omitted).

5

1

. In a secluded area of the Botanic Garden, Reed raped S., placed his penis

2

in her mouth and forced her to masturbate him. Afterward Reed dropped S. off at

3

her high school. As he drove away, S. wrote down the license number of his car.

4

Initially S. told police that Reed had “picked her up” and “thrown her into

5

the car.” Later she told police that Reed had threatened to “use a knife on her” if

6

she did not get into his car. Still later, S. admitted to police that these versions

7

were untrue and at trial she testified to the version of events described above. On

8

cross-examination she admitted that she had initially lied to .the police.

9

Reed testified in his own defense. He stated that S. approached him and

10

expressed interest in being a model. She agreed to go to the Botanic Garden with

11

him to pose for pictures in return for $20 and a copy of the prints to use in her

12

modeling portfolio. S. told Reed that she was 19 years old and he believed her.

13

At the Garden, Reed photographed S. as agreed. After the photo session ended,

14

they argued over the amount Reed had agreed to pay S. for her modeling; Reed

15

claiming it was $20 and S. claiming it was $200. In the course of their argument

16

Reed remarked that S. would “have to do a little bit more than that for $200” and

17

S. replied “let it do what it'do.” Taking that reply as a consent to engage in sex,

18

and believing S. to be 19, Reed found a “nice spot,” engaged in vaginal

19

intercourse with her and ejaculated on her face and neck. Reed denied forcing S.

20

to touch his penis and denied putting his penis in her mouth or putting his mouth

21

on her breast.

22

Reed proposed calling S.’s mother as a defense witness to testify whether

23

the police had “manipulate[ed]” S.’s testimony. Although he conceded that he did

24

not know what the mother would say and was not able to make an offer of proof

25

of her testimony because, she had refused to talk to his investigator, he did

26

explain: “She had a[n] inclination to not allow Detective Montenegro to talk to

27

her daughter because she felt like they were manipulating her daughter.” The

28

court, however, refused Reed’s request to call the mother as a witness stating “this

6

1

isn’t the time for depositions” and that Reed’s “hope that she’s going to be able to

2

provide relevant information” was not enough of a showing to allow her

3

testimony.

4

•

(Lodgment 5 at 3-4.)

5

IV.

6

PETITIONER’S CLAIMS

7

Petitioner raises the following claims for habeas corpus relief:

8

(1) The California Court of Appeal misapplied federal authority on compulsory process

9

by failing to unconditionally reverse Petitioner’s conviction on appeal after finding

10

the trial court erred by preventing Petitioner from calling the victim’s mother as a

11

defense witness;

12

(2) The state courts incorrectly applied the materiality analysis in considering the

13

testimony of the victim’s mother as it related to Petitioner’s compulsory process

14

claim;

15

(3) The trial court improperly denied Petitioner’s request for self-representation; and

16

(4) The trial court erred by refusing to conduct a hearing on Petitioner’s request to

17

substitute counsel.

18

V.

19

STANDARD OF REVIEW

20

21
22

A.

28 U.S.C. § 2254
The standard of review that applies to Petitioner’s claims is stated in 28 U.S.C. § 2254, as

amended by the Antiterrorism and Effective Death Penalty Act of 1996 (“AEDPA”):

23

(d)

24

pursuant to the judgment of a State court shall not be granted with respect to any

25

claim that was adjudicated on the merits in State court proceedings unless the

26

adjudication of the claim—

An application for a writ of habeas corpus on behalf of a person in custody

27

28
7

1

(1)

resulted in a decision that was contrary to, or involved an

2

unreasonable application of, clearly established Federal law, as determined by the

3

Supreme Court of the United States; or

4

(2)

resulted in a decision that was based on an unreasonable

5

detennination of the facts in light of the evidence presented in

6

the State court proceeding.

7

28 U.S.C. § 2254(d). If these standards are difficult to meet, it is because they were meant to be.

8

As the United States Supreme Court stated in Harrington v. Richter.7 while the AEDPA “stops

9

short of imposing a complete bar on federal court relitigation of claims already rejected in state

10

proceedings^]” habeas relief may be granted only “where there is no possibility fairmindecl

11

jurists could disagree that the state court’s decision conflicts” with United States Supreme Court

12

precedent. Further, a state court factual determination must be presumed correct unless rebutted

13

by clear and convincing evidence. s

14

B.

15

Sources of “Clearly Established Federal Law”
According to Williams v. Taylor.9 the law that controls federal habeas review of state

16

court decisions under the AEDPA consists of holdings (as opposed to dicta) of Supreme Court

17

decisions “as of the time of the relevant state-court decision.” To determine what, if any,

18

“clearly established” United States Supreme Court law exists, a federal habeas court also may .

19

examine decisions other than those of the United States Supreme Court.10 Ninth Circuit cases

20

“may be persuasive.”11 A state court’s decision cannot be contrary to, or an unreasonable

21

application of, clearly established federal law, if no Supreme Court decision has provided a clear

22

holding relating to the legal issue the habeas petitioner raised in state court.12

23
24

25
26
27
28

7 562 U.S. 86, 131 S. Ct. 770, 786, 178 L. Ed. 2d 624 (2011).
8 28 U.S.C. § 2254(e)(1).
9 529 U.S. 362, 412, 120 S. Ct. 1495, 146, L. Ed. 2d 389 (2000).
10 LaJoie v. Thompson. 217 F.3d 663. 669 n.6 (9th Cir. 2000).
11 Duhaime v. Ducharme, 200 F.3d 597, 600 (9th Cir. 1999).
12 Brewer v. Hall. 378 F.3d 952, 955 (9th Cir. 20041: see also Carey v. Musladin. 549 U.S. 70, 77, 127, S. Ct. 649,
649, 166 L. Ed. 2d 482 (2006) (in the absence of a Supreme Court holding regarding the prejudicial effect of
spectators’ courtroom conduct, the state court’s decision could not have been contrary to or an unreasonable
application of clearly established federal law).

8

• \

1

Although a particular state court decision may be both “contrary to” and an

2

“unreasonable application of’ controlling Supreme Court law, the two phrases have distinct

3

meanings under Williams.

4

A state court decision is “contrary to” clearly established federal law if the decision either

5

applies a rule that contradicts the governing Supreme Court law, or reaches a result that differs

6

from the result the Supreme Court reached on “materially indistinguishable” facts.

7

court decision denying a claim is “contrary to” controlling Supreme Court precedent, the

8

reviewing federal habeas court is “unconstrained by § 2254(d)(1). »14 However, the state court

9

need not cite or even be aware of the controlling Supreme Court cases, “so long as neither the

10

»

-n

If a state

reasoning nor the result of the state-court decision contradicts them. »15

11

State court decisions that are not “contrary to” Supreme Court law may be set aside on

12

federal habeas review only “if they are not merely erroneous, but ‘an unreasonable application’

13

of clearly established federal law, or based on ‘an unreasonable determination of the facts.

14

Accordingly, this Court may reject a state court decision that correctly identified the applicable

15

federal rule but unreasonably applied the rule to the facts of a particular case.17 However, to

16

obtain federal habeas relief for such an “unreasonable application,” a petitioner must show that

17

the state court’s application of Supreme Court law was “objectively unreasonable” under

18

Woodford v. Visciotti.18 An “unreasonable application” is different from merely an incorrect •

19

one. 19

20

Where the California Supreme Court denied claims without comment, the state high

21

court’s “silent” denial is considered to be “on the merits” and to rest on the last reasoned

22

decision on the claims. In the case of Claims Three and Four, this Court looks to the grounds the

23

California Court of Appeal stated in its March 4, 2009 decision on direct appeal.20

24

25
26
27
28

13 Early v. Packer. 537 U.S. 3, 8, 123 S. Ct. 362, 154 L. Ed. 2d 263 (2002) (per curiam) (citing Williams, 529 U.S.
at 405-06).
14 Williams, 529 U.S. at 406.
15 Early, 537 U.S. at 8.
16 Id, at 11 (citing 28 U.S.C. § 2254(d)).
See Williams. 529 U.S. at 406-10, 413.
18 537 U.S. 19, 27, 123 S. Ct. 357, 154 L. Ed. 2d 279 (2002).
19 Williams. 529 U.S. at 409-10.
20 See Ylst v. Nunnemaker, 501 U.S. 797, 803-06,111 S. Ct. 2590, 115 L. Ed. 2d 706 (1991).

9

1

Where, as here with respect to Claims One and Two, the state courts have supplied no

2

reasoned decision for denying the petitioner’s claims on the merits,21 this Court must perform an

3

‘“independent review of the record’ to ascertain whether the state court decision was objectively

4

unreasonable.”22

5

VI.

6

DISCUSSION

7

A.

Remedy on Appeal

8

1.

9

In Claim One, Petitioner argues the California Court of Appeal misapplied United States

Background

10

Supreme Court precedent when it found the trial court abused its discretion by disallowing

11

testimony from the victim’s mother but then determined the appropriate remedy was a remand

12

for further proceedings rather than an unconditional reversal. (FAP at 5; Supplemental FAP at 1-

13

5.) The California Court of Appeal fairly summarized the trial court proceedings underlying

14

Petitioner’s claim in its March 4, 2009 decision on direct review:

15
16
17

At a time when [Petitioner] was still representing himself, the court asked
him to identify the witnesses he intended to call.
When [Petitioner] named S.’s mother the court assumed [Petitioner]

18

wanted to question her about whether S. had claimed to be the victim of sexual

19

molestation in the past. The court stated it was not inclined to permit that

20
y

'J^ 21
22
y.23
24

25
26
27
28

21 Respondent suggests the California Court of Appeal’s March 4,2009 decision on direct appeal is the last
reasoned opinion on Claim One (Answer at 14), and the California Court of Appeal’s February 6,2014 decision on
direct appeal is the last reasoned opinion on Claim Two (Answer at 14). Although in its 2009 decision the Court of
Appeal addressed Petitioner’s argument that the trial court erred by preventing Petitioner from calling the victim’s
mother, the state appellate court did not address Petitioner’s argument that the appellate court misapplied federal
precedent in forming a remedy. Rather, Petitioner presented his current claim to the California Supreme Court in his
Petition for Review from the Court of Appeal’s 2009 decision. (Lodgment 2 at 4-11.) The California Supreme
Court denied the Petition for Review without comment. (Lodgment 3.) In addition, although the California Court of
Appeal cited federal precedent in its consideration of Claim One, its ultimate decision was based on an issue of state
law. (Lodgment 1 at 17-21.) The state appellate court did not address the merits of the federal issue. Moreover,
although Petitioner presented Claim Two as a federal claim to the California Court of Appeal in Petitioner’s third
round of direct review (Lodgment 54 at 7-20), the state appellate court addressed it as a state law claim only
(Lodgment 5 at 8-10). Thus, the state appellate court did not offer a reasoned analysis as to Petitioner’s federal
constitutional claim.
22 Himes v. Thompson. 336 F.3d 848, 853 (9th Cir. 2003) (citing Delgado v. Lewis. 223 F.3d 976, 981-82 (9th Cir.
2000)).

10

1

question but before making a filial ruling on that issue it would review the cases

2

under Evidence Code section 782.

3
4

“concerning everything other than [S.’s prior sexual conduct] until final ruling is

5

made on the 782?” This question led to the following colloquy between the court

6

and [Petitioner].

7
8

9

“The court: What would she be able to testify to that she would have direct
knowledge of?
“The defendant: She had a[n] inclination to not allow Detective

10

Montenegro to talk to her daughter because she felt like they were manipulating1

11

her daughter. So I’m wondering what brought her to that point where she felt like

12

they were manipulating her daughter.

13

“The court: Under [section] 352,1 don’t find that particularly probative,

14

and that’s the conclusion of this person, maybe. But I don’t think that it’s

15

relevant as it relates to the facts before the jury. Her feelings about law

16

enforcement or their investigation aren’t relevant.

17
18

“The defendant: What if she actually knew what they actually said or did
to her daughter?

19

“The court: What’s your offer of proof?

20

“The defendant: That was just it. I don’t know the whole reason as to why

21
22

she didn’t want Montenegro to talk to her daughter alone.
“The court: This isn’t the time for depositions. I’m not going to allow you

23

to call the witness on the hopes that she’s going to be able to provide information

24

to make it relevant. What else do you have? Who else do you want?

25
26
{

[Petitioner] then asked the court whether he could question S.’s mother

27

“The defendant: Based on your rulings concerning [section] 352, that may
be all that I want to offer right now.”
(Lodgment 1 at 15-17.)

28
11

':i'.

1

The California Court of Appeal then found the trial court abused its discretion under

2

California Evidence Code section 352 when it prevented Petitioner from calling the victim’s

3

mother as a defense witness. (Lodgment 1 at 17-20.) Specifically, the appellate court found the

4

trial court held Petitioner to too high a burden in proffering the relevance of the witness’s

5

proposed testimony because the witness had refused to speak with members of the defense team.

6

(Lodgment 1 at 18-19 (citing United States v. Valenzuela-Bemal23 for the proposition that

7

“when the defendant has not had the opportunity for a pretrial interview with the witness” ‘“the

8

defendant cannot be expected to render a detailed description of [the] lost testimony.’”)). Next,

9

the court proceeded to a harmless error analysis but determined it could not make a finding as to

10

prejudice without additional evidence. (Lodgment 1 at 20.) Accordingly, the appellate court

11

concluded it could not, based on the record before it, reverse Petitioner’s conviction outright.

12

Rather, the appellate court remanded the matter to the trial court to conduct a hearing at which

13

Petitioner would be allowed to call the victim’s mother as a witness in an attempt to show the

14

exclusion of the evidence resulted in prejudice at trial. (Lodgment 1 at 20-21.)

15

2.

16

To the extent Petitioner argues the California Court of Appeal merely erred in its

.

Analysis

17

application of state law when it opted to remand the matter to the trial court under California

18

Penal Code section 1260, he fails to state a claim cognizable on federal habeas review. Federal

19

habeas relief is not available for errors of state law only.24

20

Petitioner’s claim also fails to the extent he argues the California Court of Appeal

21

misapplied the United States Supreme Court’s decision in Valenzuela-Bemal when it remanded

22

the action rather than ordering an unconditional reversal of Petitioner’s conviction. (See

23

Supplemental FAP at 2-5; Reply at 3-6.) Although the California Court of Appeal cited

24

Valenzuela-Bemal in its decision, it did so to articulate the burden to be imposed upon a

25

defendant in proffering the relevancy of proposed witness testimony, a burden the appellate court

26
27
28

23 458 U.S. 858, 102 S. Ct. 3440, 73 L. Ed. 1193 (1982).
24 See 28 U.S.C. § 2254(a); see also Estelle v. McGuire. 502 U.S. 62, 67-68, 112 S. Ct. 475, 116 L. Ed. 2d 385
(1991) (“In conducting habeas review, a federal court is limited to deciding whether a conviction violated the
Constitution, laws, or treaties of the United States.”).

12

\ /
A'

1

was considering within the context of the trial court’s decision to exclude the proposed testimony
under California Evidence Code section 352. (Lodgment 1 at 19.) To this end, the California

3

Court of Appeal’s ultimate finding of trial court error was not premised on a violation of the

4

federal constitutional right to compulsory process, as articulated in Valenzuela-Bemal. In fact,

5

the state court never reached the federal constitutional issue. Instead, the appellate court

6

premised its decision on a finding that the trial court abused its discretion under California

7

Evidence Code section 352 by holding Petitioner to too high a burden with respect to proffering

8

the relevancy of the proposed testimony. (Lodgment 1 at 17-20.)

9

Petitioner’s claim still fails even if he could show the California Court of Appeal relied

10

upon Valenzuela-Bemal in addressing Petitioner’s federal constitutional claim. In Valenzuela-

11

Bemal.25 the Supreme Court considered a scenario where a criminal defendant was deprived of

12

witness testimony after the witnesses at issue were deported by the government. The Court

13

explained the absence of the witnesses would violate the defendant’s right to compulsory process

14

only if the defendant could “at least make some plausible showing of how [the witnesses’]

15

testimony would have been both material and favorable to his defense.”26 The Court went on to

16

remark that “[b]ecause prompt deportation deprives the defendant of an opportunity to interview

17

the witnesses to determine precisely what favorable evidence they possess, [] the defendant

18
.a 19

cannot be expected to render a detailed description of their lost testimony.”27 The Court
cautioned, however, that “this does not. .. relieve the defendant of the duty to make some

20

showing of materiality.”28 Thus, the Court concluded, “sanctions will be warranted for [a

21

violation of the right to compulsory process] only if there is a reasonable likelihood that the

22

testimony could have affected the judgment of the trier of fact.”29 Ultimately, in Valenzuela-

23

Bemal. because the defendant did not make the showing of materiality, the Supreme Court found

24

he had not made a showing of a violation of his right to compulsory process.30

25
26
27
28

25 458 U.S at 860-61.
26 Id. at 867.
27 Id, at 873.
28 Id,
29 Id, at 873-74.
30 Id. at 874.

13

s

'\

1

'i :

Petitioner's.mistaken in suggesting Valenzuela-Bemal mandated an unconditional

2

reversal in his case. In analyzing Petitioner’s state law claim, the California Court of Appeal

3

concluded it needed additional evidence to assess whether the exclusion of the testimony at issue

4

resulted in prejudice at trial. It follows that the evidence before the appellate court was

5

insufficient to determine the materiality of the proposed testimony, thereby preventing an

6

ultimate finding on the issue of compulsory process under the authority of Valenzuela-Bemal.

* 7

(See Lodgment 1 at 19-20 (noting “[t]he record supports the possibility that mother could give

8

material testimony” but remanding to take the witness’s testimony because “we do not know,

9

and have no way of determining from the record, what [the witness] would have testified to had

10

she been called” at trial) (emphasis added). Because the record before the appellate court was

11

insufficient on its face to prove materiality, the court could have relied on Valenzuela-Bemal to

12

deny Petitioner’s compulsory process claim outright.31 However, at that stage, the appellate

13

court did not foreclose Petitioner’s opportunity for obtaining relief. Instead, it allowed Petitioner

■e^14
15

an additional opportunity to gather evidence that could help him prove the materiality component

i /

AiC

of a compulsory process claim.

16

Finally, Petitioner’s claim fails to the extent he argues the California Court of Appeal

17

applied an incorrect harmless error standard. (Reply at 3, 5-13.) The appellate court did not

18

conduct a harmless error analysis. In fact, the court’s reasoning for sending the case to the trial

19

court for further proceedings was that the appellate court had insufficient evidence upon which to

20

conduct a harmless error analysis. (Lodgment 1 at 20-21.)

21

Accordingly, the state courts’ rejection of Petitioner’s claim was not contrary to, or an

22

unreasonable application of, federal law. Habeas relief is not warranted on Claim One.

23

B.

Materiality

24

1.

-25

In Claim Two, Petitioner argues, as an alternative to Claim One, that following remand

26

the state courts misapplied the materiality standard in adjudicating Petitioner’s claim regarding

Background

27
28

31 Id, at 874 (defendant did not show violation of right to compulsory process because he did not prove the
witnesses’ testimony was material).

14

1

the exclusion of the mother’s testimony. (FAP at 5; Supplemental FAP at 5-20; Reply at 13-

2

18.)32

3
4

The California Court of Appeal fairly summarized the procedural and factual background
underlying Petitioner’s claim in its February 6, 2014 decision on direct appeal: ■'

5

[]

6

Upon Reed’s appeal from the judgment we held that the court abused its

7

discretion in excluding the mother’s testimony because the record supported the

8

likelihood that the mother could give material testimony and the court’s

9

requirement that Reed demonstrate how the mother would testify “imposed an

Evidence At The First Remand

10

insurmountable burden on the defense.” Because we.could not determine whether

11

the exclusion of the mother’s testimony was prejudicial, we conditionally

12

reversed the judgment and remanded the case to the trial court to hear the

13

mother’s testimony and determine whether it required granting Reed a new trial.

14

We specifically directed the trial court not to limit the mother’s testimony to the

15

“manipulation” issue but to “hear all relevant testimony mother has to offer.” We

16

further directed that after the court heard all of the mother’s relevant testimony it

17

“shall evaluate the materiality of this new evidence in light of the whole record

18

and determine whether to grant Reed a new trial.”

19
20

Upon remand, the court held a hearing at which S.’s mother was
questioned by Reed, again appearing in pro per, and the prosecutor.

21

The mother testified that she received telephone calls from S.’s

22

grandmother and the police informing her that S. had been raped and was at the

23

police station. When she arrived at the station she saw S. and hugged her. The

24
25
26
27

28

32 Petitioner argues this Court must review his claim de novo because the state courts applied the wrong materiality
standard. (FAP at 5; Supplemental FAP at 5; Reply at 13-18.) This Court does not agree. However, this Court
notes that even under a de novo review Petitioner’s claim fails for the reasons discussed below. In addition,
Respondent argues Petitioner’s claim is unexhausted to the extent he argues the state courts misapplied the
materiality standard. (Answer at 25.) To the extent Respondent is correct that Petitioner failed to exhaust any
portion of his claim, this Court denies the claim on the merits notwithstanding the exhaustion issue. See Cassett v.
Stewart. 406 F.3d 614, 623-24 (9th Cir.2005) (the court may deny on the merits an unexhausted claim which is not
“colorable”); see also 28 U.S.C. § 2254(b)(2)).

15

1

police did not allow her to be present when they interviewed S. The mother stated

2

that she was angry at being excluded from the interview and came away with the

3

impression that female officers at the police station had been rough, mean and

4

mde toward S. That was why, she explained, she was initially reluctant to allow

5

Detective Montenegro to come to the house to speak further.with S. Once she

6

realized that Montenegro was not one of the officers who had behaved in a

7

manner she disapproved, she allowed Montenegro to come and interview S. The

8

mother testified that in the days following the alleged rape, S. told her, in bits and

9

pieces, a version of what happened that was fairly close to her testimony at trial.

10

The mother further testified that she did not believe S. was a liar, S. had

11

never been in trouble for ditching classes, she was a “model student” who

12

received “straight A’s” and that S. had never had any problems in' school.

13
14

Following the hearing the court denied Reed’s motion for a new trial and
reinstated the judgment.

15

[]

16

We again reversed the judgment because the court prevented Reed from

Evidence At The Second Remand

17

seeking evidence from S.’s mother on relevant topics. The court would not allow

18

Reed to question the mother about the kinds of discipline she inflicted on S. prior

19

to the incident in order to show S. lied about the incident out of fear of her

20

mother’s retribution. The court would not allow Reed to question the mother

21

about where S. got the money to pay for her cell phone in order to show that S.

22

needed money for the phone. Finally, the court would not allow Reed to question

23

the mother about whether she fed S. every day. The relevancy of this last inquiry

24

arose from the testimony of one of S.’s teachers that he frequently gave S. food

25

money because she was having a “hard time at school.” Reed reasoned that if S’s

26

mother fed her at home, her asking for food money at school showed she would

27

“trick adults out of their money.”

28

On the second remand, S.’s mother gave the following testimony.

16

1

The mother stated that when she testified at the evidentiary hearing after

2

the first remand she did not testify falsely to protect S. nor did she ever lie to any

3

law enforcement officials to protect S. Her mother testified that S. has lied to her

4

in the past but Reed did not ask, and her mother did not give details of what S.

5

lied about. She did say that she could tell whether or not S. is lying but she was

6

not asked if she believed S. was telling the truth in stating that Reed raped her.

7
8

If S. misbehaved, her mother punished her by depriving her of privileges
such as taking away her computer. She never used physical discipline on S.

9

On the issue of where S. got the money for her cell phone and food, her

10

mother testified that S. performed chores around the house, and as a reward she

11

received allowances and privileges, such as owning her own cell phone. The

12

mother bought time on S.’s phone for her and could not recall any times when

13

S.’s phone time ran out and she needed more money. Her mother tried “to keep

14

her phone bill paid.” At the time of the incident, the mother received Social

15

Security and public financial assistance; however, she did not acquire money “in

16

other ways” to “make ends meet.” Her children’s father worked. Between his

17

income, upon which the mother “didn’t rely,” her Social Security income and

18

public assistance she was able to pay her rent. She did not describe her

19

“economical situation” as “hard times.” Instead, she said things were “all right,”

20

and that “up until the point of the rape ... it wasn’t that bad.” When S. needed

21

clothing and other items, her mother, along with S.’s father, grandmothers, and

22

aunt, would contribute money.

23

The mother testified that when she arrived at die police station, she saw S.

24

and gave her a hug. At that point, two officers called S. into another room. The

25

police told the mother that she could not join her daughter. S. told her mother that

26

she wanted to speak with her, but she never said that she wanted to speak with her

27

mother privately, and she never asked to leave the station. The mother saw that S.

28

was “sad” and that “[something was wrong.-”' While she was at the station, the

17

1

mother did not recall seeing the officers provide S. with any food or drink, and

2

she did not recall seeing S. use the bathroom in the seven to nine hours she was

3

being questioned by the police. Her mother later clarified on cross-examination

4

that she did not know whether S. used the bathroom before she got there, only that

5

when she arrived, S. needed to use the bathroom. When S. left the room she was

6

“upset” and she told her mother “how they were speaking to her.” The mother

7

admitted that she had previously accused the police of “badgering” her daughter

8

during the interview.

9

When asked if she allowed S. to “hang out” alone with her boyfriend, her

10

mother answered, “No.” (This conflicted with S.’s testimony at trial that she did

11

not have a boyfriend.)

12
13
14

After hearing the mother’s testimony the court permitted Reed to call
certain “‘impeachment’ witnesses” to counter her testimony.
Vince Carbino, the principal of S.’s school, testified that he prepared an

15

incident report concerning the alleged attack on S. and that he obtained the

16

information he used in the report from Alan Tuazon, a clinical social worker

17

employed by the school district. Tuazon obtained his information by sitting in on

18

a meeting between the school nurse, the police and S. The incident report

19

describes the incident as a “possible rape” and the suspect as a “Black Male

20

Teenager or Early Adult.” It also states: “During police questioning, student

21

changed story to she had been with her boyfriend from Dorsey High School all

22

day.” It is undisputed that her mother was never involved in these conversations

.23

and that she did not receive a copy of the incident report.

24

The court also heard testimony that nearly four years after the alleged

25

sexual assault S.’s mother was arrested for violating Penal Code section 244,

26

assault with a caustic chemical (bleach). The alleged victim was a 5-year-old

27

child. The case was ultimately rejected for filing by the District Attorney and the

28

Los Angeles City Attorney.

18

•

1

Reed attempted to subpoena S.’s school records for the period 2003-2007

2

including her report cards, attendance records, disciplinary reports and all reports

3

prepared by school officials regarding the alleged sexual assault. The attorney

4

representing S. at the hearing moved to quash the subpoena and the court granted

5

the motion on the grounds the records were outside the scope of our remand, Reed

6

failed to establish good cause for the production of the records and this collateral

7

attempt to impeach the mother violated S.’s right to privacy and to be free from

8

harassment.

9

10

motion for a new trial. The court found that Reed failed “to establish any

11

reasonable probability that a more favorable outcome would have occurred even .

12

if the jury had heard the testimony of S. ’s mother and the additional

13

“‘impeachment’ witnesses.” In accordance with our instructions, the court

14

reinstated the judgment.

15

(Lodgment 5 at 4-8 (footnote omitted).)

16

..

After hearing the testimony described above the court denied Reed’s

The California Court of Appeal then denied Petitioner’s claim, finding the trial court did

17

not abuse its discretion when it denied Petitioner’s new trial motion under state law because it

1-8

was not reasonably probable the result of Petitioner’s trial would have been different had

19

Petitioner presented the mother’s testimony. (Lodgment 5 at 8-10.)

20

2.

21

The Sixth Amendment provides that the defendant has “[t]he right to offer the testimony

Legal Standard

22

of witnesses, and to compel their attendance, if necessary.”33 Though fundamental, the Sixth

23

Amendment right to compulsory process does not afford “[t]he accused ... an unfettered right to

24

offer testimony that is incompetent, privileged, or otherwise inadmissible under standard rules of

25

evidence. The Compulsory Process Clause provides him with an effective weapon, but it is a

26

weapon that cannot be used irresponsibly.”34 Rather, “[i]n the exercise of [the right to present

27
28

33 Washington v. Texas. 388 U.S. 14, 19, 87 S. Ct. 1920, 18 L. Ed. 2d 1019 (1967); Taylor v. Illinois. 484 U.S. 400,
408-09, 108 S. Ct. 646, 98 L. Ed. 2d 798 (1988).
34 Tavlor, 484 U.S. at 410.

19

1

witnesses], the accused, as is required of the State, must comply with established rules of

2

procedure and evidence designed to assure both fairness and reliability in the ascertainment of

3

guilt and innocence.”35 Moreover, “[t]he Supreme Court has held that the Sixth Amendment’s

4

guarantee of compulsory process only is violated when the criminal defendant is arbitrarily

5

deprived of ‘testimony [that] would have been relevant and material, and . .. vital to the

6

defense.’”36

7

The Sixth Amendment right to compulsory process requires the same “showing of

8

materiality” as the Fifth Amendment Due Process Clause.37 “Materiality” is “a reasonable

9

probability that... the result of the proceeding would have been different. A ‘reasonable

10

probability’ is a probability sufficient to undermine confidence in the outcome.”38 Stated

11

differently, evidence is material “only if there is a reasonable likelihood that the testimony could

12

have affected the judgment of the trier of fact.”39 Thus, “more than the mere absence of

13

testimony is necessary to establish a violation of the right [to compulsory process]. ”40

14

. “Materiality requires that ‘the omission ... be evaluated in the context of the entire

15

record.’”41 A plausible showing must be made illustrating that the witness's testimony would

16

not have been merely cumulative to the testimony of available witnesses.42

17

“However, violations of the right to compulsory process are subject' to harmless error

18

review.”43 “The standard governing harmless error review on federal habeas petitions is stated

19

in Brecht v. Abrahamsonl44!: whether the error ‘had substantial and injurious effect or influence

20

in determining the jury's verdict. ”’45

21

III

22
23
24

25
26
27
28

35 Taylor. 484 U.S. at 411 n.15 ('quoting Chambers v. Mississippi. 410 U.S. 284, 302, 93 S. Ct. 1038, 35 L. Ed. 2d
297 (1973)).
36 Selam v. Warm Springs Tribal Correctional Facility. 134 F.3d 948, 952 (9th Cir.1998) ('quoting Washington. 388
U.S. at 16).
37 United States v. Bianchi. 594 F.Supp.2d 532, 544-45 (E.D. Pa. 2009).
38 United States v. Bagiev. 473 U.S. 667, 682, 105 S. Ct. 3375, 87 L. Ed. 2d 481 (1985).
39 Valenzuela-Bemal. 458 U.S. at 874. '
40 Id. at 867.
41 Howard v. Walker. 406 F.3d 114, 131 (2d Cir. 2005) (citation omitted).
42 Valenzuela-Bemal. 458 U.S. at 873.
43 Williams v. Stewart. 441 F.3d 1030, 1055 (9th Cir. 2006).
44 507 U.S. 619, 637, 113 S. Ct. 1710,123 L. Ed. 2d 353 (1993).
45 Rogers v. McDaniel. 793 F.3d 1036, 1042 (9th Cir. 2015).

20

i

~v~

1

4.

2

On its face, Petitioner’s claim is that the state courts applied an incorrect standard of

Analysis

3

materiality in adjudicating his compulsory process claim. Petitioner is mistaken. As explained,

4

the compulsory process precedent applies a “reasonable probability” standard of materiality.

5

This is the materiality standard the state courts applied in addressing Petitioner’s claim under

6

state law, although the trial court also suggested Petitioner’s claim still failed under an alternate

7

standard. (Lodgment 5 at 8; Lodgment 41 at 54-55; Lodgment 44 at 72-74; Lodgment 46 at

8

3902, 4202.)

9

Moreover, even if Petitioner’s challenge is to the correctness of the state courts’

10

unreasoned denials of his federal compulsory process claim, his argument fails. Petitioner’s case

11

has been the subject of extensive litigation. Throughout this litigation Petitioner has asserted that

12

the trial court violated Petitioner’s right to compulsory process by preventing him from calling

13

the victim’s mother as a witness at trial. For the sake of clarity and finality, this Court has

14

carefully considered all of Petitioner’s arguments in this regard, made both here and in state

15

court, and finds that, even if this Court could give weight to Petitioner’s claims of error and

16

assumed the victim’s mother would have testified at trial as she did at the two hearings before

17

the trial court, any error in preventing the witness’s testimony was harmless.46 In other words,

18

any alleged error did not have a substantial and injurious effect or influence in determining the

19

jury’s verdict.

20

The victim gave detailed, compelling, and credible testimony about how Petitioner

21

coaxed her into his car under false pretenses, took her to an isolated location, and sexually

22

assaulted her. (5 RT at 1509-16 (Petitioner convinced the victim to get in his car after he

23

claimed to be a modeling agent and said he would pay the victim $200 to take some

24

photographs), 1534-38 (Petitioner put his hands and mouth on the victim’s breasts), 1548-51

25

(Petitioner raped the victim), 1552 (Petitioner forced the victim to orally copulate him), 1554-56

26

(Petitioner forced the victim to masturbate him).) Supporting the victim’s credibility was

27
.

28

46 This Court has carefully considered all of the evidence presented throughout all of Petitioner’s litigation in this
case. This Court discusses below only the evidence it finds to be relevant to the consideration of the issues raised by
Petitioner’s claim.

21

!

1

testimony that, when Petitioner dropped the victim off after the assault, she wrote down

2

Petitioner’s license plate number, as well as the color and make of his car. She also tried to draw

3

a picture of him. (6 RT at 1567-69.) The victim went directly to her computer class where her

4

teacher noticed she was “ashen” and “seemed extremely upset.” (5 RT at 1264; 6 RT at 1569.)

5

After class, the victim cried and asked her teacher to help her look up Petitioner’s license plate

6

number on the computer. (5 RT at 1265; 6 RT at 1569.)

7

8

Petitioner attempted to rebut this evidence with testimony at trial and on remand before
the trial court. However, Petitioner presented little more than inconsistencies and insinuations

' 9

painting a picture of a typical human life, particularly for a teenage child. (Lodgment 46 at

10

2736-37 (the victim had lied to her mother in the past), Lodgment 46 at 2740, 2742 (the victim’s

11

mother disciplined her for misbehaving but was never violent, thereby undermining Petitioner’s

12

theory that the victim might have falsified the story because she was afraid of telling her mother

13

she had consensual sex with Petitioner for money); Lodgment 46 at 2747-50; 5 RT at 1263) (the

14

victim’s teacher gave her money to buy food even though her family was providing for her

15

sufficiently). None of these attempts at impeachment would have had a substantial affect or

16

influence on the jury, particularly when the jury had already heard evidence that the victim lied

17

to police but nevertheless credited her testimony by convicting Petitioner. (6 RT at 1590-91 (the

18

victim initially lied to police about how she got in Petitioner’s car.)

19

To the extent Petitioner strongly pushed a theory that the police coerced the victim into

20

claiming Petitioner assaulted her, he has not presented proof that would have had a substantial

21

influence on the jury. Petitioner presented evidence that the victim’s mother was skeptical about,

22

the way the police treated the victim. (Lodgment 46 at 2773, 2776, 2779, 3091 (mother did not

23

like the way police treated the victim and believed they badgered her and were mean and rude).)

24

However, the mother testified that she was never in the room with the victim when she was

25

speaking with police and, thus, she could not offer any proof of how the police may or may not

26

have influenced the victim’s statements. (Lodgment 42 at 57-58, 67, 92, 104-05; Lodgment 46

27

at 2756-57, 2761, 2774, 2780, 2807, 2860.) The mother further clarified that when she

28

expressed concern about the police being rude to the victim, she really meant the police were

22

/

1

rude to the mother because they would not allow her in the room with the victim during

2

questioning. (Lodgment 46 at 2779-80.) Moreover, despite Petitioner’s theory that the mother

3

thought police were badgering the victim, the mother ultimately signed a document authorizing

4

the police to question the victim further. (Lodgment 42 at 54; Lodgment 46 at 2868-70) Finally,

5

while Petitioner attempted to show through the mother’s testimony that the police did not

6

provide the victim with food or drink and did not allow her to use the bathroom, the mother

7

admitted she did not know whether the victim had been able to use the bathroom while at the

8

police station (Lodgment 46 at 2772-73, 2801, 2860)

9

The strong evidence of Petitioner guilt was contrasted at trial by Petitioner’s changing

10

accounts of the events and an unlikely story that he was the victim of a sophisticated plot by a

11

teenage girl to exchange sex for money and then accuse him of a serious crime. (7 RT at 2442-

12

43,2445,2482,2487-88,2518.)

13

A4

Ultimately, Petitioner has not shown that any of the alleged errors by the trial courts

14

resulted in the exclusion of evidence that might have had a substantial affect or influence on the

15

jury’s verdict. Accordingly, the state courts’ rejection of Petitioner’s claim was not contrary to,

16

or an unreasonable application of, federal law. Habeas relief is not warranted on Claim Two.

17

C.

Faretta

18

1.

19

In Claim Three, Petitioner argues the trial court violated his right to self-representation

20

under Faretta v. California47 when it denied Petitioner’s mid-trial motion to represent himself.

21

(FAP at 9; Supplemental FAP at 21-22; Reply at 18-25.)48 The California Court of Appeal fairly

22

summarized the factual background underlying Petitioner’s claim in its March 4, 2009 decision

23

on direct review:

24

Background

Reed represented himself throughout most of the pretrial proceedings and

25

the trial of the People’s case. Just before the prosecution called Detective

26

Montenegro, its last witness, Reed asked to give up his self-representation and

27
28

47 422 U.S. 806, 95 S. Ct. 2525,45 L. Ed. 2d 562 (1975).
48 To the extent Petitioner’s claim is really one of ineffective assistance of counsel, this Court has considered
Petitioner’s arguments and finds any such claim lacks merit.

23

1

requested that his stand-by counsel be appointed to represent him. The court told

2

Reed that it was willing to grant his request with the understanding “that once I

3

make the determination on that request, that’s it. I’m not going to — I’m not even

4

going to listen to a request for you to represent yourself again during the course of

5

this trial. ... Do you understand?” Reed responded, “Yes, your Honor.” The court

6

next asked Reed: “Do you now waive and give up your right to pro per privileges

7

and request counsel be appointed to represent you?” Reed responded, “Yes, I do.”

8

The court then granted Reed’s request, terminated his pro. per. privileges and

9

appointed his stand-by attorney as attorney of record.

10

Reed’s counsel represented him through the remainder of the

11

prosecution’s case and examined Reed’s DNA expert witness. The following day,

12

Reed informed the court that he wanted to revert to self-representation because he

• 13

was dissatisfied with his counsel’s representation. The court asked Reed if he was

14

making a Marsden motion and Reed stated that he was. In a closed hearing Reed

15

explained his dissatisfaction with counsel’s cross-examination of Detective

16

Montenegro and examination of his DNA expert and counsel explained the

17

reasons and tactics for his actions. After hearing Reed and his counsel, the court

18

denied Reed’s Marsden motion finding counsel’s performance did not fall below

19

the standard of a reasonably competent lawyer. The court added that it was

20

denying Reed’s request to represent himself as “untimely” and “dilatory.”

21

(Lodgment 1 at 13-14.)

22

2.

23

The California Court of Appeal held that the trial court did not abuse its discretion when

State Court Opinion

24

it denied Petitioner’s Faretta motion because Petitioner’s motion was untimely and he was

25

engaged in dilatory tactics. (Lodgment 1 at 14.)

26

III

27

III

28

III
24

•

1

3.

2

The right to counsel has been inteipreted to encompass “an independent constitutional

Legal Standard

3

right” of the accused to represent himself at trial, and thus waive the right to counsel.49 This

4

right, however, is neither automatic nor without qualification. To properly invoke his rights

5

under Faretta. a defendant’s request must be timely, not for purposes of delay, unequivocal, and

6

knowing and intelligent.50 The Supreme Court has not articulated when a Faretta motion will be

7

considered “untimely,” but has found that a motion made “weeks before trial” is properly

8

presented.51 Faretta otherwise provides no guidance as to what constitutes a timely request for

9

self-representation.52

10

4.

11

Petitioner cites no United States Supreme Court authority for the proposition that his t- ;

i

Analysis

12

mid-trial request to represent himself was timely and should have been granted. A state court’s

13

decision cannot be contrary to clearly established Federal law if there is a “lack of holdings

14

from” the Supreme Court on a particular issue.53 Moreover, notwithstanding the lack of clearly

/ 15
16

established Supreme Court precedent, it was not unreasonable for the state courts to conclude
Petitioner’s motion, made well into trial, was untimely.54

17

Accordingly, the state courts’ rejection of Petitioner’s Faretta claim was not contrary to, '

18

or an unreasonable application of, federal law. Habeas relief is not warranted on Claim Three.

19

III

20

III

21

III

22
23
24

•25
26
27

28

49 Faretta, 422 U.S. at 806.
50 United States v. Maness. 566 F.3d 894, 896 (9th Cir. 2009) (per curiam).
51 See Faretta, 422 U.S. at 835.
52 Stenson v. Lambert. 504 F.3d 873, 884-85 (9th Cir. 2007) (Faretta “indicates only that a motion for self­
representation made ‘weeks before trial’ is timely”).
53 Carey v.Musladin. 549 U.S. 70, 77, 127 S. Ct. 649, 166 L. Ed. 2d 482 (2006); Marshall v. Taylor. 395 F.3d
1058, 1061 (9th Cir. 2005) (“Because the Supreme Court has not clearly established when a Faretta request is
untimely, other courts are free to do so as long as their standards comport with the Supreme Court’s holding that a
request ‘weeks before trial’ is timely.”) (footnote omitted).
54 Marshall. 395 F.3d at 1061 (state courts reasonably concluded request made on the first day of trial was
untimely); Rogers v. Giurbino. 619 F.Supp.2d 1006,1013 (S.D. Cal. 2007) (federal habeas relief not warranted
where state court found Faretta motion was untimely because it “was made on the first (or possibly second) day of
trial”).

25

1

D.

Marsden

2

1.

3

In Claim Four, Petitioner argues the trial court erred by refusing to conduct a hearing on

Background

4

Petitioner’s motion to replace his appointed counsel under People v. Marsden.55 (FAP at 9;

5

Supplemental FAP at 22-25; Reply at 25-34.) The California Court of Appeal fairly summarized

•6

the factual background underlying Petitioner’s claim in its March 4, 2009 decision on direct

7

review:

8

After the court pronounced sentence it advised Reed of his appeal rights

9

and then addressed his counsel, asking: “Mr. Kim, will you be filing a notice of

10

appeal on [Reed’s] behalf?” Counsel responded: “Your Honor, I will. But — I’ve

11

just been told by Mr. Reed that he wants to request a Marsden hearing.” The court

12

responded: “It’s a little untimely at this point. The request for a Marsden hearing

13

is denied.” (Italics added.)

14

(Lodgment 1 at 15.)

15

2.

16

The California Court of Appeal rejected Petitioner’s claim, explaining no purpose would

17

have been served'by appointing new counsel after the pronouncement of sentence. (Lodgment 1

18

at 15.)

State Court Opinion

19

3.

20

The denial of a motion to substitute counsel implicates a defendant’s Sixth Amendment

21

right to counsel and is properly considered in federal habeas.56 The Ninth Circuit has held that

22

when a defendant voices a seemingly substantial complaint about counsel, the trial judge should

23

make a thorough inquiry into the reasons for the defendant’s dissatisfaction.57 However, the

24

inquiry need only be as comprehensive as the circumstances reasonably would permit.58 If a

Legal Standard

25
26
27

28

55 2 Cal.3d 118 (1970).
56 Bland v. California Dep't of Corrections. 20 F.3d 1469, 1475 (9th Cir.1994), overruled on other grounds by
Schell v. Witek. 218 F.3d 1017 (9th Cir.2000).
57 Id. at 1475-76: Hudson v. Rushen. 686 F.2d 826. 829 (9th Cir. 19821.
58 King v. Rowland. 977 F.2d 1354, 1357 (9th Cir. 1992) (record may demonstrate that extensive inquiry was not
necessary).

26

-v /
1

state court denies a motion to substitute counsel, the ultimate inquiry in a federal habeas

2

proceeding is whether the petitioner’s Sixth Amendment right to counsel was violated.59

3

4.

4

Petitioner did not move to substitute trial counsel until his proceedings had concluded.

Analysis

5

The only step left for Petitioner was the filing of his notice of appeal. Petitioner has not alleged

6

he received ineffective assistance of counsel in relation to the filing of that notice of appeal.

7

Accordingly, Petitioner cannot show the trial court’s denial of his motion to substitute counsel

8

resulted in the denial of Petitioner’s right to effective trial counsel.60

9

Accordingly, the state courts’ rejection of Petitioner’s Marsden claim was not contrary to,

10

or an unreasonable, application of, federal law. Habeas relief is not warranted on Claims Four.

11

E.

12

Cumulative Error
To the extent Petitioner presents a claim of cumulative error (Reply at 41-42), he is not

13

entitled to relief. Cumulative error applies where, “although no single trial error examined in

14

isolation is sufficiently prejudicial to warrant reversal, the cumulative effect of multiple errors

15

may still prejudice a defendant.”61 However, where no error lies with each alleged claim taken

16

separately, there also rests no cumulative error.62 Similarly, where no prejudice lies with each

17

alleged claim taken separately, there also rests no cumulative prejudice.63

18

Here, this Court finds that none of the alleged claims individually constituted prejudicial

19

error. Accordingly, the Court finds that Petitioner did not suffer any cumulative prejudice that

20

deprived him of due process.

21
22
23
24

25
26
27

28

59 Schell. 218 F.3d at 1024-25.
60 To the extent Petitioner argues he had wanted to lodge a motion to substitute counsel before his sentence was
imposed, (see Reply at 33), his allegation is not supported by anything more than his owrfselfr serving statements A
offered in hindsight. See Womack v. Del Pana. 497 F.3d 998, 1004 (9th Cir. 2007) (rejectingineffective assistance
of counsel claim when “[o]ther than Womack's own self-serving statement, there is no evidence” to support the
claim); Turner v. Calderon. 281 F.3d 851, 881 (9th Cir. 2002) (“'[S]elf-serving statements by a defendant that his
conviction was constitutionally infirm are insufficient to overcome the presumption of regularity accorded state
convictions.”' (citation omitted)).
61 Mancuso v. Olivarez. 292 F.3d 939, 957 (9th Cir. 2002) (internal quotation marks and citation omitted).
62 See Mancuso. 292 F.3d at 957 (“Because there is no single constitutional error in this case, there is nothing to
accumulate to a level of a constitutional violation.”).
63 Thompson v, Calderon. 109 F.3d 1358, 1369 (9th Cir. 1997, as amended Mar. 6, 1997), rev'd on other grounds,
523 U.S. 538, 566, 118 S. Ct. 1489, 140 L. Ed. 2d 728 (1998) (“Finding no prejudice from the errors taken
separately, we also find no cumulative prejudice.”); Rupe v. Wood. 93 F.3d 1434, 1445 (9th Cir. 1996) (same).

27
\

1

'

F.

Evidentiary Hearing

2

Petitioner seeks an evidentiary hearing in this matter. (Reply at 9, 23-24, 28, 37-38, 41-

3

42.) An evidentiary hearing is not warranted where, as here, “the record refutes the applicant’s

4

factual allegations or otherwise precludes habeas relief.”64 As such, Petitioner’s request for an

5

evidentiary hearing should be denied.

6

VII.

7

RECOMMENDATION

8

IT THEREFORE IS RECOMMENDED that the District Court issue an Order: (1)

9
10

approving and accepting this Report and Recommendation; and (2) directing that Judgment be
entered denying the Petition and dismissing this action with prejudice.

11
12
13

14

DATED:

December 17, 2018
HONORABLE LOUJsE A. LA MOTHE
United States Magistrate Judge

15
16
17
18
19
20
21
22
23
24
25
26
27
28
64 Schrirro v. Landrigan, 550 U.S. 465, 474, 127 S. Ct. 1933,167 L. Ed. 2d 836 (2007).

28

r

FILED

UNITED STATES COURT OF APPEALS

MAR 6 2020

FOR THE NINTH CIRCUIT

MOLLY C. DWYER, CLERK
U S. COURT OF APPEALS

ANTOINE D. REED,
Petitioner-Appellant,
v.
DANIEL PARAMO, Warden,

No.

19-55301

D.C. No. 2:15-cv-05636-CAS-LAL
Central District of California,
Los Angeles
ORDER

Respondent-Appellee.
Before:

4

CANBY and CHRISTEN, Circuit Judges.

The request for a certificate of appealability (Docket Entry No. 2) is denied
because appellant has not made a “substantial showing of the denial of a
constitutional right.” 28 U.S.C. § 2253(c)(2); see also Miller-El v. Cockrell, 537
U.S. 322, 327 (2003).
Any pending motions are denied as moot.
DENIED.

*

&

i

i

